<html>
<title> - DEPARTMENT OF ENERGY OVERSIGHT: OFFICE OF FOSSIL ENERGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    DEPARTMENT OF ENERGY OVERSIGHT:
                        OFFICE OF FOSSIL ENERGY

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 11, 2016

                               __________

                           Serial No. 114-76

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
                                ____________
                                
                   U.S. GOVERNMENT PUBLISHING OFFICE                
20-873PDF                   WASHINGTON : 2017                   
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>  
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEPHAN KNIGHT, California           ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                           
                           C O N T E N T S

                              May 11, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Alan Grayson, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    18

                               Witnesses:

The Honorable Chris Smith, Assistant Secretary, Office of Fossil 
  Energy, U.S. Departmentof Energy
    Oral Statement...............................................    20
    Written Statement............................................    22
Discussion.......................................................    32

             Appendix I: Answers to Post-Hearing Questions

The Honorable Chris Smith, Assistant Secretary, Office of Fossil 
  Energy, U.S. Departmentof Energy...............................    52

 
                    DEPARTMENT OF ENERGY OVERSIGHT:
                     OFFICE OF FOSSIL ENERGY


                        WEDNESDAY, MAY 11, 2016

                  House of Representatives,
                    Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. The Subcommittee on Energy will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of this Subcommittee at any time.
    I want to welcome you to today's hearing titled 
``Department of Energy Oversight: the Office of Fossil 
Energy.''
    I recognize myself for five minutes for an opening 
statement.
    Again, welcome to today's Energy Subcommittee hearing 
examining the Department of Energy's Office of Fossil Energy. 
Today, we will hear from the Department on the research, 
development, demonstration and commercialization activities in 
the Office of Fossil Energy, and the impact DOE's fossil energy 
programs have on the energy market and the U.S. economy.
    Fossil fuels are America's dominant energy source, and 
provide over 80 percent of energy around the world. The 
International Energy Agency estimates that even if the 
aggressive regulations required to meet the Paris Climate 
Agreement are implemented, fossil fuels will still account for 
over 40 percent of global energy use in the year 2050.
    With those statistics in mind, DOE should prioritize the 
type of early stage research in fossil energy that will lead to 
next generation technology to access our natural resources, 
move fossil fuels safely to consumers, and then use those fuels 
more efficiently in our cars and in our power plants. Through 
the national labs, the Department should take the lead on 
fossil energy technology innovation, conducting the 
foundational research that allows the private sector to 
commercialize groundbreaking technology.
    Unfortunately, that is not the type of budget proposal 
we're discussing today. In the DOE fiscal year 2017 budget 
request, it is clear that fossil energy innovation is not the 
priority for the Obama Administration. While the DOE budget 
proposal regularly offers aspirational goals backed by 
significant spending in renewable energy research and 
development, the budget for fossil energy is cut year after 
year.
    This year is no exception, with a $32 million cut to fossil 
energy R&D. When compared to the proposed $2.1 billion--with-a-
B increase to renewable energy, there's no question about where 
this Administration wants to innovate. And what's worse, 
instead of research designed to increase fossil energy 
production through innovation or cut the cost of electricity 
from fossil fuels with new technology, the budget proposal for 
fossil energy is singularly focused on emissions management, or 
``impact mitigation'' as the budget describes it.
    Simply put, the vast majority of DOE fossil energy research 
and development programs have been reduced to managing 
emissions to comply with EPA regulations. But over-regulation 
is not the right way to innovate. And the Department of Energy 
shouldn't be dedicating limited taxpayer resources to proving 
commercial-scale technology to back up EPA rules.
    DOE's research infrastructure should be used to develop 
groundbreaking technology, not move that technology to the 
commercial market.
    By focusing on justifying regulations and rushing to scale 
up today's technology, the Department has repeatedly put 
taxpayer dollars at risk on large-scale projects that were not 
ready for prime time. Even the few successful projects that 
make it into operation, one in my district, the Air Product and 
Chemicals carbon capture sequestration storage demonstration 
project, are often completed at a great cost to the American 
taxpayer. DOE does not have adequate expertise or capacity to 
successfully manage commercial-scale projects. So instead, the 
Department should focus limited federal dollars on the 
fundamental research to lay the foundation for the next 
technological breakthrough.
    The Department of Energy has made significant contributions 
to fossil energy production by funding early-stage research, 
and allowing the private sector to then make that technology 
work in the energy market.
    DOE research conducted by the national labs helped develop 
the technology of hydraulic fracturing that led to the shale 
revolution. If the Department refocuses on technology research 
and development, I believe that American industry can then 
capitalize on that research, and they can revolutionize the 
energy industry once again. But that won't happen if DOE's 
limited resources remain stove-piped--pun intended. Did you 
like that pun? All right--and focused on regulatory compliance.
    I want to thank Assistant Secretary Chris Smith for 
testifying here today, and I look forward to a review of the 
budget proposal and a discussion about DOE priorities and 
research goals for fossil energy.
    By funding early-stage research and development, the 
Department of Energy could build a foundation for the private 
sector to bring innovative new fossil energy technologies to 
market, and help grow the American economy, and I would even 
add help with those emissions.
    [The prepared statement of Chairman Weber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. With that, I want to yield to the Ranking 
Member for his opening statement.
    Mr. Grayson. Thank you, Chairman Weber, and thank you, Mr. 
Smith, for testifying today.
    Let's be clear about what we are talking about. We are 
talking about air pollution in the form of carbon dioxide 
emissions. No company that produces energy in the United States 
has any incentive to limit its own air pollution unless we 
create that incentive for it. Now, there are different means to 
do that. For instance, we could simply order it. That's 
regulation. My Republican colleagues might decry that as some 
kind of war on coal, but the fact is, that's one way to 
actually cut emissions that wouldn't happen otherwise.
    The second possibility is for the government to actually do 
it itself. The government could actually produce large-scale 
products that would capture carbon as it is being emitted or 
before it's being edmitted into the atmosphere. That would be 
another solution to the problem.
    But there is no solution that does not involve some kind of 
government action because the private market will not limit 
pollution when the cost of pollution is zero. So either we have 
to create a cost of pollution through a market mechanism or we 
have to order its limitation one way or another as we did with 
the cap-and-trade bill from several years ago.
    So one way or another we need government involvement. I 
don't particularly see any benefit in saying that it has to be 
a particular kind of government involvement. I don't think 
there's any benefit in saying it has to be small scale or 
limited to research or anything like that. The ultimate test 
is, is it effective or not.
    Now, with our government being formally committed under the 
Paris Climate Agreement to limitations on emissions, I think we 
have to be practical about how we get to those limits, how we 
achieve those goals. But it's dreaming to think that it's going 
to happen through the ``free market'' when the free market has 
every incentive to continue to pollute as much as it wants.
    Now, with regard to coal versus other sources of energy, we 
all know that coal has been on the decline in the United 
States. I think that one of the reasons, to be fair about this, 
is the rise of natural gas. Another reason is the rise of solar 
and other renewable forms of energy. That's actually what's 
happening with or without carbon sequestration. According to 
the U.S. Energy Information Administration, natural gas is 
projected to surpass coal as the leading source of energy for 
U.S. power generation this year. And there's a shift to natural 
gas in the United States that has resulted in reduced 
greenhouse gas emissions, reduced pollution by carbon dioxide, 
if you will.
    And I should remind everybody that although natural gas is 
a cleaner source of fossil energy, it still emits a very large 
and substantial amount of carbon dioxide into our atmosphere, 
unlike renewables.
    It should be noted that coal and natural gas account for 
about 65 percent of U.S. electricity generation together, and 
it's possible that they may continue to be a major part of U.S. 
energy, particularly depending upon how fast renewables surge 
into that gap.
    Nearly every activity within the Office of Fossil Energy is 
focused on climate disruption in one form or another and how 
that has brought about by fossil energy. I commend you for 
focusing on that, for focusing on matters of environmental 
mitigation because that's a legitimate government role, and it 
is true that the Administration is proposing to cut that 
overall budget.
    In order to deliver on the emission targets agreed to in 
the Paris Climate Agreement and in the future, carbon capture 
technology likely will be needed in the United States as well 
as around the world, particularly in developing countries that 
rely continually, heavily on coal. According to the 
International Energy Agency, the world's coal consumption is 
going up, not down, and since the start of the 21st century, 
coal production has been actually the fastest-growing global 
energy source, particular in third-world countries. India is 
entering a period of sustained rapid growth, and its demand for 
cheap coal power generation is surging. China and Southeast 
Asia are major consumers of coal and continue to bring on new 
coal-fired power plants each year. And African countries still 
count on fossil fuels for 77 percent of their electricity 
production.
    Thus, the development of carbon capture technologies is 
crucial to the worldwide effort to reduce greenhouse gas 
emissions and keep our planet safe. The United States can lead 
this effort to solve this challenging technological problem 
through your research. We can, and should, capitalize on this 
unique environmental and economic opportunity.
    The Administration's announcement of fossil energy 
technology innovation gave us all high hopes for transforming 
our energy economy, including the advancement of innovative 
carbon capture technologies like the ones they're working on 
right now. But looking closer at the details, I realize that we 
may fall short of making any significant progress in reducing 
the environmental impact of fossil fuels through carbon 
pollution.
    I am hoping that this hearing provides a clearer 
explanation of the significant cuts within the Office of Fossil 
Energy's Advanced Energy Systems program budget that have been 
proposed, among other areas. Also, I'd like to hear how DOE 
plans to better steward large demonstration and pilot projects 
going forward since I believe that they may well be necessary 
to meet our goals of reducing carbon pollution. I hope our 
conversation today can help to highlight some of these needed 
improvements, and I thank the chairman and the witness and 
yield back.
    [The prepared statement of Mr. Grayson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. I thank the gentleman.
    The Chair now recognizes the Chairman of the full 
Committee, Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Today we will examine the Department of Energy Office of 
Fossil Energy's research and development budget for coal, oil, 
and natural gas.
    The fossil energy research and development programs should 
advance technologies for the ``reliable, efficient, affordable, 
and environmentally sound use of fossil fuels that are 
important to our nation's security and economic prosperity'' as 
is their stated mission. Like many of my colleagues, I share 
this commitment to the long-term use of our nation's most 
abundant and affordable fuel source.
    Unfortunately, the Administration's proposed budget for 
fossil energy research and development appears to be at odds 
with America's energy resources and needs. As in past budget 
requests, the Obama Administration proposes to cut fossil 
energy R&D this time by $32 million.
    DOE apparently counts on Congress to increase funding for 
fossil energy every year, and I'm glad to see the House 
Appropriations Committee has proposed to restore funding for 
fossil energy R&D again this year. However, this lack of 
consistency is no way to manage a robust research and 
development program.
    While the Administration pays lip service to the important 
role of fossil fuels in a clean energy future, there are 
fundamental concerns with DOE's approach to fossil energy R&D. 
DOE refuses to prioritize early-stage research and development 
for innovative fossil energy exploration and production 
technologies or research to develop and integrate technology to 
make coal-fired power plants more efficient. Instead, the 
Fossil Energy R&D program has become singularly focused on 
carbon dioxide management.
    DOE should expand access to America's oil and gas 
resources, not use limited research dollars to help the EPA 
measure emissions. Unfortunately, fossil energy innovation does 
not appear to be a priority for this Administration.
    The fiscal year 2017 budget proposal also lacks 
transparency. The Administration proposes to eliminate funding 
by fuel type in the fossil R&D budget. It argues that this can 
streamline research for carbon capture and sequestration by 
coordinating coal and natural gas programs. While CCS for coal 
and natural gas power plants face similar technology 
challenges, the proposed restructuring masks how federal 
dollars are being spent. Congress appropriates funding by fuel 
type to avoid this problem. Coordination of research when 
appropriate can be cost-effective and save limited resources 
for research and development. But coordination cannot come at 
the expense of transparency.
    The budget proposal also lacks transparency regarding the 
Administration's Mission Innovation initiative. This is the 
commitment made during the Paris climate change negotiations to 
double federal investment in clean energy research and 
development. According to the budget request, $564 million of 
the $600 million request for fossil energy R&D is for programs 
that support Mission Innovation. However, nowhere in the budget 
does DOE explain the purpose of Mission Innovation or the goals 
for fossil energy research and development conducted in support 
of the initiative. It should be clear to stakeholders, 
researchers, and Congress what the Department hopes to 
accomplish in fossil energy and across DOE.
    Finally, the Office of Fossil Energy has significant 
management challenges. Large demonstration projects have been 
poorly managed by the Department, with little transparency on 
project decisions until a public announcement of pooled funds.
    The Office of Fossil Energy should fairly enforce deadlines 
and work with companies to ensure projects can be successful. 
Instead, it appears the Office systematically ignores time and 
cost limits. This type of sloppy management doesn't help 
companies that work with DOE to develop groundbreaking 
technology, and it certainly doesn't benefit the taxpayer.
    Mr. Chairman, I want to thank our witness, Assistant 
Secretary Smith, for testifying today, and I look forward to a 
discussion about the direction and purpose of the fossil energy 
research programs at DOE.
    Finally, let me say that regrettably I have another 
committee that is starting a markup or started a markup 20 
minutes ago, so I'm going to have to leave, but I hope to 
return.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Chairman.
    The Chair now recognizes the Ranking Member of the full 
Committee, the gentlelady from Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
express my appreciation to you and to the Ranking Member for 
holding this hearing. And I'd also like to thank Assistant 
Secretary Smith for being here today.
    The Department of Energy's Office of Fossil Energy plays a 
critical role in developing technologies and best practices 
that minimize the environmental impact that we, and indeed the 
world, cause when we extract and use fossil fuel resources.
    While I'm also strongly in support of the Department's 
efforts to advance renewables, energy efficiency, nuclear 
power, and other clean energy sources as quickly as possible, I 
recognize that we and our international partners are likely 
going to continue to use significant amounts of coal, natural 
gas, and oil to heat our homes and fuel our vehicles for 
decades to come.
    However, we can't bury our heads in the sand if we are 
serious about tackling climate change. We can't just focus on 
developing one set of energy sources, as promising as they are. 
We need to do all of them.
    This is why I was so excited about the announcement of 
Mission Innovation, a commitment that the President and leaders 
from 19 other nations made to double their government-supported 
clean energy R&D investments over the next five years. This is 
exactly the kind of commitment we need to cover the full range 
of research and technology development activities required to 
sufficiently address the climate crisis.
    And yet, just a few months after Mission Innovation was 
announced, the Department proposed large cuts to or the 
outright elimination of a number of worthwhile programs carried 
out by Assistant Secretary Smith's Office, with little 
justification for those cuts provided in the budget request. 
Examples include the elimination of the Carbon Use and Reuse 
program, a 78 percent cut to Gasification Systems, a 73 percent 
cut to fuel cell research, and a 33 percent cut to the Advanced 
Turbines subprogram.
    All of these programs aim to make fossil energy systems 
cleaner and more efficient, which is consistent with the goals 
of Mission Innovation. So, Mr. Smith, I hope you can help us 
better understand the rationale behind these drastic cuts that 
have been made, despite an effort to double overall funding for 
clean energy R&D in the next five years.
    In addition, and we have discussed before, I would like you 
to provide this Committee with a clear explanation for the 
Department's rather abrupt shift from support of the Texas 
Clean Energy Project through the end of the year to your 
proposal to reprogram the remaining, previously appropriated 
funds for it. Your timely response to the letter from the Texas 
delegation on this issue was helpful, as was my recent 
conversation with the Secretary. And the Inspector General 
report released two weeks ago on the project provided further 
context. However, questions remain regarding the process that 
the Administration followed to come to its decision.
    I certainly understand that sometimes new research projects 
are unsuccessful in meeting their initial goals, and difficult 
decisions must be made to ensure that taxpayer dollars are used 
wisely. But this needs to be done in a clear and transparent 
fashion, with mutually understood milestones and clearly stated 
potential consequences for not achieving them.
    I look forward to working with you, Mr. Smith, and my 
colleagues on the Committee, to address these concerns and to 
ensure that you have the direction, tools, and resources you 
need to help ensure that we are using our abundant fossil 
energy resources as wisely and responsibly as possible.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. I thank the gentlelady.
    Let me introduce our witness today. Our witness today is 
the Honorable Chris Smith, Assistant Secretary for Fossil 
Energy at the U.S. Department of Energy. Prior to his 
confirmation in 2014, Assistant Secretary Smith served as 
Principal Deputy Assistant Secretary for Fossil Energy, and as 
Deputy Assistant Secretary for Oil and Natural Gas. Assistant 
Secretary Smith received his bachelor's degree in engineering 
management from West Point and his MBA from Cambridge.
    I now recognize Assistant Secretary Smith for five minutes 
to present his testimony. Welcome, Chris.

              TESTIMONY OF HON. CHRISTOPHER SMITH,

             ASSISTANT SECRETARY FOR FOSSIL ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Mr. Smith. Thank you very much, Mr. Chairman, and it's a 
pleasure to appear again before this Committee, so thank you 
very much for having me here today.
    Today we're seeing new opportunities and challenges for our 
fossil energy resources. This was highlighted in the recent 
climate agreement in Paris. With the United States' leadership, 
190 countries submitted plans to reduce their carbon emissions 
to address climate change. COP-21 was an important first step 
but it was only a first step. The mandate coming out of Paris 
is that we must continue to innovate.
    That's the idea behind Mission Innovation, a landmark 
international effort to double clean energy research and 
development over the next 5 years.
    Mr. Chairman, in the clean energy economy of the future, 
there will be those who build the technologies and there will 
be those who buy them. The United States must be a builder and 
a leader in this new economy.
    We have a leg up in this race. Innovation is something that 
we do well here in America and at the Department of Energy.
    The Department is primarily a research organization focused 
on developing clean energy technologies from wind to solar, 
from geothermal to nuclear, but one of the most important 
things that we are doing in our work is to enable the 
sustainable use of our coal and natural gas resources. That's 
what we do through my Office of Research and Development 
program, and that's the core of our contribution to Mission 
Innovation
    The President's final budget emphasized the importance of 
this work with a $31 million increase in those core activities 
consistent with Mission Innovation, and through your funding, 
Congress also recognizes the importance of fossil energy 
research and development.
    This R&D includes in-house research at NETL, the National 
Energy Technology Laboratory, the only government-owned and 
government-operated laboratory in DOE where we are working with 
our partners to advance innovative technologies like CCS, 
advanced power systems to ensure the sustainable use of natural 
gas and coal. And just today we announced the selection of Penn 
State to establish and lead a new university coalition for 
fossil energy research, which will focus on the challenges to 
fossil energy-based technologies.
    I'd like to add that we're also working with those 
communities that have been impacted by market pressures on coal 
including exploring commercial opportunities for extracting 
rare earth elements from coal. This is important to those 
communities and to the Nation since China is currently the 
dominant source for those materials.
    We also sponsor a portfolio of major demonstration projects 
which are critical to commercializing carbon capture 
utilization and storage. These projects along with our regional 
partnerships have stored nearly 12 million metric tons of 
CO<INF>2</INF>.
    As you know, however, the developments of any complicated 
innovative technology will face difficulties. Some projects 
won't reach completion, and I have had the opportunity to talk 
with some of you about the Texas Clean Energy Project, but 
we're also seeing real progress.
    For example, NRG's Petra Nova 240-megawatt post-combustion 
project will begin full capacity operation next January. 
Southern Company's Kemper project is preparing gas fires for 
the first lignite feed and syngas production and is scheduled 
for commercial startup by third quarter of this year.
    ADM's industrial CCS project will achieve full CO<INF>2</INF> 
injection rate by early 2017, and the Air Products project is 
expected to capture and store 3 million metric tons of CO<INF>2</INF> 
by the summer.
    Going forward, we will soon select a 10-megawatt pilot 
project to test the next generation of carbon capture 
technologies. We also have the opportunity to strengthen our 
contribution to Mission Innovation. Our fiscal year 2017 budget 
proposes that an initiative that would build on FER&D advances 
to bring to market revolutionary methods and technologies that 
capture, use and store CO<INF>2</INF> for power plants as well 
as from industrial sources.
    Fossil Energy research and development is also pursuing 
innovative ways to safely and sustainably develop our gas 
resources including gas hydrates. R&D includes well design and 
engineering-induced seismicity and technologies to treat and 
produce waste for reuse.
    We're also working to reduce methane leaks from our natural 
gas infrastructure. That's why in the wake of Aliso Canyon 
we've partnered with the Department of Transportation on a new 
interagency task force on natural gas storage safety, the 
safety of integrity of the Nation's natural gas infrastructure.
    We're also collaborating with transportation to better 
understand and mitigate risks associated with the 
transportation of conventional and tight crude oils.
    Mr. Chairman, innovation is critical to meeting the 
challenges of climate change and the demands of a low-carbon 
future. The Department of Energy is committed to developing 
innovative fossil energy technologies to meet those challenges 
and secure U.S. leadership in the global clean energy economy.
    With that, I'd be happy to answer any questions that the 
Committee might have, and again, thank you for giving me the 
opportunity to appear here today.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Smith.
    The Chair now recognizes himself for five minutes.
    In your opinion, Mr. Smith, what is the appropriate role of 
government in fossil energy research and development, and let 
me be specific. In other words, what is the right balance of 
investments between applied energy research versus the 
demonstration and commercialization of energy technologies for 
fossil energy? That is kind of a two-part question. Let me 
restate it.
    In your opinion, what is the appropriate role of government 
in fossil energy research and development? I'll let you take 
that one first.
    Mr. Smith. Okay. Well, thank you, Mr. Chairman, and that's 
a big question. I mean, that's the basis of our entire budget.
    So the role of my program is developing those clean energy 
technologies that are going to ensure that all forms of 
domestic energy are relevant in the economy of the future. The 
Department of Energy is a technological organization. It's what 
we do. We develop technologies from wind to solar to enhanced 
geothermal to biofuels to nuclear. An important part of all of 
our goals be it innovation, job creation, energy securing, 
reducing greenhouse gas emissions, is to ensure that all forms 
of domestic energy remain relevant, and so the core of our 
program is carbon capture and sequestration technologies, 
ensuring that those technologies move forward so that all forms 
of energy are reliable and part of the future for us.
    Chairman Weber. Well, let me say this. When you're focusing 
on--and as you know, in my district, Port Arthur, Texas, with 
Air Products, the project that you and I were able to be there 
for the groundbreaking on a very good project, a lot of carbon 
sequestration captured and, you know, just the success of the 
project, do you remember, was that $460 million?
    Mr. Smith. Of that order.
    Chairman Weber. So something in that area. And they've 
captured, I think according to your statement, up to three 
million tons now of CO<INF>2</INF>?
    Mr. Smith. Three million tons for that project.
    Chairman Weber. What does that cost per ton if you divide 
that out?
    Mr. Smith. We'd have to do the math on that, Mr. Chairman.
    Chairman Weber. Four hundred and sixty million divided by 
three million tons. That's a lot of millions of dollars per 
ton.
    It seems to me like what's happening is, when you go 
focusing on carbon--CO<INF>2</INF> capture, that it's kind of 
like closing the barn door once the cow gets out because that's 
on the back end of the energy chain, so to speak. You know, 
you're using fossil fuel energy, which as we noted earlier, is 
80 percent of the world's energy consumption, or energy usage, 
rather, and I think they're saying probably still as much as 40 
percent by 2050. So when you focus on the back end of fossil 
fuel energy, doesn't that take your focus away from innovation 
and technology on the front end?
    Mr. Smith. Well, I'm not sure I agree with that 
characterization, Mr. Chairman. The important thing that we 
have to work on--and I agree with some of the statements you 
made in your opening statement about the importance of 
innovating, the importance of early-stage technology, the 
importance of pushing the envelope in that way, and also agree 
very strongly with some things that the Ranking Member 
mentioned in his technology that the challenge of these 
projects is not the technology per se but it's some of the 
commercial issues around pushing forward and improving these 
technologies and doing the demonstrations, an environment in 
which it's free for companies to emit as much CO<INF>2</INF> as 
they want to in the environment. You don't have to pay for 
that. So there's not a way for companies to capture the very 
strong positive externalities that you get from capturing that 
CO<INF>2</INF>.
    Therefore, we have to work with industry to make sure that 
we're doing demonstrations like the one we've done in your 
district that you and I got to do the groundbreaking on. It's 
important to show and demonstrate that those technologies are 
available, that they work, that you get real projects built so 
that coal and natural gas can continue to be part of our energy 
mix.
    Chairman Weber. But in all fairness, Mr. Smith, when you 
look at that project, $460 million, 60 percent of it was paid 
for by the American Reinvestment and Recovery Act, if I 
remember, so I don't know what that math is, but--and it was a 
great project and a great plan in our district and it led to a 
lot of jobs, but realistically speaking, DOE, in my opinion, 
their--your focus needs to be on improving that energy 
efficiency, not on capturing what's considered by some to be on 
the back end, you know, undesirable energy, a fuel, and so when 
you focus on capturing the emissions, if you will, on the back 
side, you're reducing your ability to actually focus on 
innovating on the front end, and no project--I mean, I don't 
think any project can be built with 100 percent free market 
business money because when the government provided 60 percent 
of that money to that project, of course it could be built, but 
I don't think you can duplicate that.
    Mr. Smith. Well, again, Mr. Chairman, in this current 
market, that's necessary because it's free to emit as much 
carbon pollution to the environment as you want to. I mean, the 
optimal thing for a company to do is to run their plant and 
just put that pollution into the environment because it doesn't 
cost anything.
    Chairman Weber. Well, I want to respectfully disagree, and 
I'm running over here because, you know, we live in our 
districts. I represent the Gulf Coast of Texas, five ports, 
more than any other Member of Congress. Sixty percent of the 
nation's jet fuel is produced in our district. It's almost 20 
percent of the nation's gasoline east of the Rockies, so a lot 
of energy production, and those of us who live and work there, 
we want clean air for our kids and clean air and clean water. 
We just do. And those industries do too and the communities do 
too, and they strive to be as clean as possible.
    But we could go on for a long time here, and I appreciate 
you being here, and I'm way over my time, so I'm going to yield 
now for questions to the Ranking Member of the whole Committee, 
Mrs. Johnson.
    Ms. Johnson. Well, thank you. I didn't realize I'd be 
called out of order.
    Mr. Smith, roughly how much of the Fossil Fuel Energy R&D 
budget would you consider to be relevant to climate mitigation, 
both domestically and if we can export these technologies 
around the world? And in the context of Mission Innovation, how 
does it make sense for so many of these programs to receive 
such significant cuts or be eliminated entirely?
    Mr. Smith. Thank you very much for the question. So if you 
look at our entire $600 million budget request, I'd 
characterize the vast majority of those projects being relevant 
to reducing greenhouse gas emissions and promoting cleaner 
energy. The core of our program is the carbon capture and 
sequestration efforts, capturing CO<INF>2</INF> out of power 
systems, out of industrial sources, capturing that CO<INF>2</INF> 
and storing it over--permanently so that CO<INF>2</INF> does 
not go into the environment.
    In the Oil and Gas program, we're focused on environmental 
sustainability and safety, so I'd say overall if you look at 
our budget, the overwhelmingly vast majority of the work that 
we do is very much relevant to the challenge of the clean 
energy economy of the future.
    In terms of our budget, our budget is consistent with the 
idea of Mission Innovation, which is doubling of clean energy 
R&D over the next five years, and in fact, we've got a core of 
our program that is directly relevant to the challenge of 
Mission Innovation. That core has been increased from $533 
million to $564 million, so that's a $31 million increase. At 
the same time, we've had some successes in our program and 
we're rolling off of certain efforts which allow us to gain 
some efficiencies.
    For example, in our carbon storage program, we're moving 
from the injection phase in some of our major regional 
partnerships to long-term monitoring and verification. That is 
a less costly phase of that research. It's just as important 
but less costly, and what it allows us to do is, you know, in 
an environment of very challenging budgets for us to reduce 
funding in some areas as we make some advances or as some of 
the technologies become less relevant and focus those funds on 
areas that we think are going to be particularly relevant for 
the types of topics that are going to be important for Mission 
Innovation early TRL-level research and development that is 
going to be truly transformational in reducing the costs for 
capturing CO<INF>2</INF>.
    Ms. Johnson. Hypothetically, if the Department's request 
for $1.6 billion of additional so-called mandatory spending for 
clean energy research is authorized during this Congress, would 
it make sense for Fossil R&D to receive some of the additional 
funding?
    Mr. Smith. Well, indeed, Congresswoman, again, the core of 
our program, we actually are increasing and that's something 
that we'd like to--you know, we'd be happy to detail in more 
granularity but we've added additional $31 million to those 
core programs that are relevant to Mission Innovation, and over 
time since--you know, I came into this role back in 2013 so the 
2014 budget was the budget that I--you know, my first budget I 
got to work on, which was an R&D budget of about $430 million, 
and that has increased by 40 percent, you know, since the 
fiscal year 2014 request to this year of $600 million.
    So again, in an environment of tremendously challenging 
budget pressures, I think our recognition of the importance of 
this challenge has increased as has our budget request and the 
successes that we are having in some of our programs.
    Ms. Johnson. Well, considering that fossil fuel energy 
generates over 60 percent of our electricity, don't you think 
it would be wise to at least a fraction of that proposed 
increase and put it toward technology development and 
demonstration efforts to reduce environmental impacts of coal 
and natural gas, or even mission-driven basic research that 
could be handed off to industry when applicable?
    Mr. Smith. So our materials programs are and remain very 
important, everything from advanced computational efforts 
through our major demonstrations. We've got a very wide range 
of programs that are doing the early phase research and 
development on the transformational technologies like chemical 
looping and pressurized oxy-combustion all the way through the 
major demonstrations, which we are working very intently with 
our collaborators to move forward and be successful with. So 
again, I concur with your observation that these technologies 
are important, and indeed, I think that we're putting the right 
effort into them.
    Ms. Johnson. Thank you. I yield back. Time has expired.
    Chairman Weber. I thank the gentlelady.
    The gentleman from California is recognized for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me just note that I think that the premise that we're 
operating on in this hearing is just wrong. I think it started 
right with Mr. Grayson, whose opinions I deeply respect but 
disagree with, when he said that this is all about air 
pollution, and CO<INF>2</INF>--it's about CO<INF>2</INF>. It's 
not about air pollution. Pollution by the definition of most--
not most but many very prominent scientists is something that 
endangers human life, endangers the health of human beings. 
What we have here and the hundreds of millions of dollars if 
not billions of dollars that we are talking about is all based 
on the idea that CO<INF>2</INF> is heating our planet, and this 
theory, which we have to understand, pushing this theory, this 
Administration is basically by doing--putting such an emphasis 
on it, being willing to sign agreements that put enormous power 
in the hands of global decision makers instead of just American 
decision makers as well as have tremendous impact on jobs, 
especially in the coal industry where we're talking about tens 
of thousands of jobs that are being lost, and I'm very happy to 
hear we're trying to do something to help them come through a 
crisis when men and women who have earned a living and 
supported their families are now just being thrown out because 
of a theory, and I say the ``theory'' because there are 
hundreds of scientists who do not believe that the global 
warming theory based on CO<INF>2</INF> that is heating our 
planet is correct, whether it's Dr. Freeman Dyson of Cornell or 
William Happer of Princeton, those are just two of hundreds of 
scientists who just disagree, and it seems to me what we've got 
here when we're talking about the money that's being spent and 
the shift--forcibly shifting a reliance from coal to natural 
gas and to wind and solar, et cetera, is running roughshod 
basically over the livelihood and the well-being of many 
American working people, and I--can you--I guess you're not the 
one to explain global warming, the global warming theory, but 
when we're talking about CO<INF>2</INF> reduction, what are the 
other benefits that you can see that justify this enormous 
expense--how do you say--dislocation of our economy in order to 
accomplish these goals?
    Is there anything else but--somebody says air pollution. I 
don't accept the fact that CO<INF>2</INF> in any way causes 
human health problems. Air pollution to me is worth trying to 
do some things to try to protect health. There's no doubt about 
that, but trying to basically fulfill this--base our operations 
on the CO<INF>2</INF> theory of global warming I don't believe 
is justified. Maybe you could tell us what else besides global 
warming is being benefited by these expensive and dramatic 
changes that you're involved in.
    Mr. Smith. Well, thank you very much, Congressman, for the 
question. So there's a lot there in that question.
    So maybe I'll refer back to COP-21, the global climate 
event late last year. I went into COP-21 with the expectation 
that maybe 60, maybe 70, maybe 50 countries would put forth 
INDCs, their Initial National Determined Contributions, real 
steps that countries are going to take in order to reduce 
greenhouse gas emissions. With U.S. leadership we ended up with 
190 countries, 190 countries, essentially all the participating 
countries, made specific commitments to address climate change, 
to address anthropogenic CO<INF>2</INF>, a remarkable outcome. 
I mean, it's remarkable to get 190 countries to agree to 
anything, much less something as difficult to address as this, 
as fundamental as it is to our ideas around energy security, 
and indeed, something that you actually have to take steps to 
address. You know, 190 countries led by the United States. And 
so in terms of an emerging consensus, I mean, there's an 
emerged scientific consensus around this existential need to 
address carbon pollution----
    Mr. Rohrabacher. So it's all based on the CO<INF>2</INF> 
theory then? There's other things, and you're talking about 
CO<INF>2</INF>. Let me ask, does CO<INF>2</INF>--is there an 
indication--I was--I just visited some hothouses where they're 
growing different vegetables and plants, and I noted that they 
were pumping CO<INF>2</INF> into these hothouses to grow plants 
that would have a greater production of food. Even here in our 
own country we do that. If we are reducing the CO<INF>2</INF> 
in the atmosphere, is that also going to result in a lower 
production of food?
    Mr. Smith. So----
    Mr. Rohrabacher. I mean, all these people have a consensus 
about air pollution. Is there a side impact as well beside the 
dislocation of people's jobs that there'd be less food produced 
in the world?
    Mr. Smith. We actually--we're looking at beneficial uses of 
CO<INF>2</INF> that include taking CO<INF>2</INF> for algae 
production, so there are useful things that you can do with 
CO<INF>2</INF>, and that has been part of our program. It's 
been part of the EERE's program that looks at renewable energy. 
So there certainly are beneficial uses of anthropogenic 
CO<INF>2</INF>, but overall, there is an enormous challenging 
of reducing greenhouse gas emissions so that we can get the 
climate to sustainable levels. That's the core of our program. 
That's the reason why we are working on----
    Mr. Rohrabacher. Honest people can disagree with that, so 
thank you.
    Mr. Smith. And I did want to address this idea of forcibly 
shifting from coal, and I've spent--you know, I've spent a lot 
of time in coal-producing countries. I've spent some time with 
the governor in West Virginia. We had a laboratory that's based 
in Morgantown, West Virginia, a National Energy Technology 
Laboratory. Coal country is under tremendous pressures but they 
are market forces which are impacting coal. You have trillions 
and trillions of cubic feet of natural gas that are available 
and at commercial quantities that were not available years ago, 
and that reduction in the price of natural gas has put a 
tremendous pressure on coal that along with the need to 
greenhouse gas emissions, so I'd say that the program--you 
know, our efforts within the Office of Natural Gas within the 
Office of Fossil Energy are to ensure that all forms of energy 
remain relevant.
    Chairman Weber. We do need to move on. I appreciate that.
    The Chair now recognizes the Ranking Member for five 
minutes.
    Mr. Grayson. Thank you.
    Regarding my friend from California and what he just said, 
if he thinks that carbon dioxide doesn't cause any human health 
problems, I'd invite him to put a plastic bag over his head, 
tie it tightly around his neck, and see what happens next. He 
says they're always trying to do that to him anyway.
    Mr. Smith, tell me your sense of what the term ``corporate 
welfare'' means.
    Mr. Smith. I would demur from offering a definition, Mr. 
Chairman. Is that a question--or Mr. Ranking Member, is that a 
question in reference to our program or----
    Mr. Grayson. I'd like to know--well, it's a question. I'd 
like to know whether you think that anything that could be 
conceived of as corporate welfare is properly a function of 
your office.
    Mr. Smith. So the function of our office is to make sure 
that we are moving forward and deploying technologies that will 
be necessary for the clean energy economy of the future, and 
that's what we do, and in order to do that we have to work 
together with industry, work together with academia, work 
together with our network of national laboratories. It's 
important for us to have corporate partners because that's the 
way that you push innovation to the marketplace, and that's 
what we do.
    Mr. Grayson. Well, would you want to see in your office, 
for instance, $100 million effort to try to improve fracking 
technology? And if not, why not?
    Mr. Smith. Well, early on we did have a major effort for 
hydraulic fracturing. I mean, the very first horizontal----
    Mr. Grayson. I'm talking about today.
    Mr. Smith. Well, the nature of our program is, for us, a 
success is something where you have an early-stage investment 
where the government innovates. We create--we put out data and 
results and outcomes that companies can then subsequently come 
in and invest in, and so we're certainly way down the path in 
terms of hydraulic fracturing. I mean, I came from Chevron. 
That's where I was before I came to government. Companies do 
this very well. I don't see a government role in helping 
companies do things that there's already a commercial 
motivation to move forward on.
    Mr. Grayson. Do you happen to know what Exxon's annual 
research and development budget is?
    Mr. Smith. I don't know off the top of my head.
    Mr. Grayson. It's actually bigger than yours. It's a 
billion dollars a year, and it's been a billion dollars every 
year for the past 5 years.
    So do you think there's some need to try to make sure that 
your office is not doing in a duplicative way at the expense of 
the taxpayers the same work that a company like Exxon would be 
doing?
    Mr. Smith. We very specifically do exactly that.
    Mr. Grayson. All right. Explain to me how you do that.
    Mr. Smith. Well, so we're constantly in conversation with 
the market, with market players. They're our partners in a lot 
of these efforts. We know where they are in terms of be it 
extractive technologies for natural gas or technologies to 
commercialize carbon capture, for example. So, you know, we're 
in touch with the market. We see where the market's going. We 
monitor market forces. We understand what investment is being 
put in place, and we have to identify those scientific 
challenges that absent an active government role would not be 
filled and which have an important impact on the public good. 
That's basically our annual budget process.
    Mr. Grayson. And by ``important impact on the public 
good,'' you mean what you and I were both referring to earlier, 
this idea that pollution is an externality, that companies have 
no incentives to deal with it unless we create an incentive, 
and if we don't create an incentive, then it's incumbent upon 
the government to promote research and sometimes even regulate 
in order to take care of the effects of that externality? In 
fact, you used the phrase earlier ``positive externalities that 
you get from capturing CO<INF>2</INF>.'' That was your phrase, 
not mine. What did you mean by that?
    Mr. Smith. So if you capture that CO<INF>2</INF> and you 
store it instead of pumping it into the environment, that--you 
know, that avoided emissions has a definite benefit, and right 
now the market doesn't pay companies for that. If you're an 
emitter, you can emit as much CO<INF>2</INF> as you want to and 
you don't get charged for doing that.
    So there is a positive benefit to reducing emissions. In 
fact, our program is approaching 12 million tons of CO<INF>2</INF> 
that we've stored through our R&D efforts and through our major 
demonstrations. That's an enormous benefit. I mean, that is a 
positive thing. Right now companies can't reap that benefit and 
therefore you have to find other creative ways to make sure 
that these projects get built that technologies continue to 
advance. Otherwise companies aren't going to work on these 
things, and we think that they're important.
    Mr. Grayson. You're developing ways to sequester 
CO<INF>2</INF>, the actual know-how, how to do that, that's 
what you're doing in your office. What's the next step after 
that? Once you're successful, what's the next step after that?
    Mr. Smith. Well, I mean, the challenge that we have is 
continuing to advance new systems that lower cost, that 
fundamentally change the way that we combust hydrocarbons, the 
way we capture CO<INF>2</INF>. So, you know, two other projects 
that we're looking at kind of going forward for new pilots 
would be pressurized oxy-combustion using oxygen to combust the 
coal and therefore you get a very concentrated stream of water 
vapor and then CO<INF>2</INF> in the back end so you don't have 
to capture the CO<INF>2</INF>. That's kind of precaptured.
    The second thing we're working on is chemical looping, 
which is another novel way of combusting CO<INF>2</INF> that 
you end up with a very pure stream of--combusting carbon so you 
get a very pure stream of CO<INF>2</INF>.
    Those are systems that, you know, need further research. 
They need further development. They need to be investigated at 
the pilot scale but could take an enormous stride toward 
reducing the cost of capture and ensuring that all forms 
including coal remain relevant in the economy of the future.
    Mr. Grayson. But here's my point. You're not just doing 
this for the sake of advancing scientific knowledge; you're 
doing this so that we can actually sequester carbon on a large 
scale and reduce pollution, correct?
    Mr. Smith. That is correct.
    Mr. Grayson. Thank you. I yield back.
    Mr. Knight. [Presiding] Thank you very much.
    And I will take the next set of questions. First I want to 
thank the Secretary for coming out to Southern California and 
to Aliso Canyon, not that it's hard to come out to Southern 
California, but I appreciate him coming out and having the 
hearing, and it was one of the biggest incidents of the year 
without a doubt, and so my first--all of my questions will be 
around Aliso Canyon and around the gas leak that plagued our 
district for 118 days and continues to have serious issues.
    Can you tell me what the connection is to the states? In 
certain states we have--like in California, we have the CPUC. 
We obviously have the Governor's Office that does an awful lot 
of these types of regulations and issues and then we have CARB 
and I could go on and on, and I'm sure everyone's state could 
go on and on, so can you tell me from the DOE what their 
connection is, what their stance is on connecting with the 
states in reducing and the regulations that come out of the 
states?
    Mr. Smith. Well, thank you for the question. So we're the 
technical organization. You know, we do research and 
development. We've got a tremendous resource with the network 
of national laboratories, you know, thousands and thousands of 
researchers and scientists and engineers that cover the gamut 
of scientific knowledge, much of which is relevant to 
challenges like this. So our primary role at the Department of 
Energy, we're not the regulators, you know, that's not our job. 
However, we do have a very deep scientific bench that is really 
relevant to states, local and federal authorities when it comes 
to understanding risks, understanding how to mitigate risks, 
quantifying concerns, helping local and state entities come up 
with plans for mitigating those risks. We think we're an 
important resource. And indeed, much of the research and 
development that we do is geared towards quantifying concerns 
that the communities have around the long-term safety and 
sustainability of our fossil energy systems. We think that's an 
important mission that we have and one that we look for 
opportunities to work with state authorities.
    Mr. Knight. Absolutely. I understand the regulatory issues 
and who is in charge of what, but can you tell me--in other 
words, if it wasn't an emergency, would you be reaching out to 
some of these states to do some of these areas that have these 
types of issues that do high-energy output, that do underground 
piping, that do these types of things that can be dangerous, 
and we've been doing them for 70 or 80 years, and we've learned 
an awful lot. Are you reaching out to those groups and giving 
them your expertise and maybe working on some of those issues 
so that when they do regulations they're effective regulations 
and the industry is able to continue on with the regulation?
    Mr. Smith. Indeed, Congressman. I mean, we have numerous 
interactions with everything from the Southern State Energy 
Board to the American Association of Petroleum Geologists. We 
have ongoing conversations with state geologists throughout the 
United States. I mean, there's myriad entities that we work 
with to--and that communication goes two ways. I mean, we get 
great inputs from states in terms of things that they're 
learning and their processes that would help us shape our 
research and development program, and then we also look for 
opportunities to share things that we're learning so that 
states can be more effective regulators.
    States of course--again, we're not the regulators. States 
are covetous us with their regulatory autonomy, which I think 
is important. But at the same time, every state--well, states 
have different concerns but a lot of them are similar, and a 
lot of things that states are concerned with are the very 
issues that we are investigating within the Office of Fossil 
Energy, with the National Energy Technology Laboratory. So 
indeed, I look for--I look forward to having further 
opportunities to collaborate with the State of California and 
with other entities throughout the United States on these 
important issues.
    Mr. Knight. And very quickly, so we've seen the PIPES Act 
that has moved through for underground piping, and there's been 
an amendment that has been kind of to put a regulation across 
the board in the federal government so that states are not 
doing--one is doing this, one state is doing this, one state is 
doing this. How would you feel as--is that a good--is that a 
good line in the sand to say that the federal government should 
be doing that or should we allow the states to just do whatever 
you want and there's no federal regulation?
    Mr. Smith. Well, Congressman, I'm not familiar enough with 
the amendment to speak specifically to that particular 
amendment or to that piece of proposed legislation, but 
certainly there is a balance to be drawn, and again, we're not 
the regulator but, you know, whatever entity is in charge of 
putting in place rules or promulgating those rules, the 
Department of Energy would look for opportunities to 
collaborate to make sure that rules are put in place to 
represent commonsense regulation that's consistent with science 
and the quantified risk that we worked on.
    Mr. Knight. Very good. Thank you very much.
    And I'll recognize the distinguished gentleman from 
Colorado.
    Mr. Perlmutter. Thank you, Mr. Chair.
    Mr. Secretary, thanks for being here. I've just--you know, 
listening to this conversation and representing the suburbs of 
Denver where we have a lot of activity in the environmental 
community, obviously have substantial production of oil and gas 
and we have coal in our state, so it's a combination of things, 
and you know, there are some in my state that would completely 
do away with any fossil-fuel production whatsoever because they 
believe with everything in their soul that that's causing the 
planet to warm and could, you know, lead to the extinction of 
all of us. Then there are those that are in the industry 
saying--some who say well, you know what, we're going to 
produce, we have a very reliable energy sources here whether 
it's oil and gas or coal, and we're going to just produce, and 
I want to compliment you and DOE for trying to find a way that 
uses innovation, imagination, invention to take a plentiful 
energy source that we have and yet recognize the environmental 
problems that it may be causing, and so you know, thank you for 
that. I'm glad to see you all play a role in trying to take the 
brains that we have and find a way to make these things work 
without damaging the planet.
    But my questions are on the Strategic Petroleum Reserve, 
okay? And one of the things that we've seen--and I used to be a 
bankruptcy lawyer and I cut my teeth on oil and gas 
bankruptcies, and we watched the Saudis, who can produce at a 
much lower price than we can, you know, back in the day drop it 
from 30 bucks a barrel to 7 bucks a barrel. We've watched them 
now pump into lower demand type of economy, take it from 107 
bucks a barrel down to 30, and now we're at around 40, 45. And 
I know DOE plays some--has some role with respect to the 
Strategic Petroleum Reserves, which Congress has tapped to help 
fund a couple of items out there, whether it's some of our 
transportation, our budget generally. Can you explain to us--
and maybe it's not within your jurisdiction of your department 
within DOE but can you explain to us how DOE analyzes, you 
know, when we fill up the Strategic Petroleum Reserve, when we 
draw down on it? I mean, is that a question that you're 
comfortable with?
    Mr. Smith. Thank you, Congressman. So the--you know, as you 
know, oil prices are very volatile. In the 1998 time frame, 
we're looking at $18, $20 prices. Ten years later in 2008, we 
were up to $140. Oil prices subsequently crashed down to the 
20s and are now back up to the 40s, you know, 44, 45. So a 
remarkably volatile commodity for something upon which our 
entire economy relies. I mean, the overwhelmingly vast majority 
of miles that Americans travel are fueled by oil. So we still 
have a very important strategic link back to oil and our 
economy has a very high level of vulnerability to spiking oil 
prices. We are importing fewer barrels than--we import fewer 
barrels from other countries than we produce domestically for 
the first time in decades, which I think is--you know, it's a 
tremendous step forward. It reduces our reliance, helps us 
balance the trade and job creation. I mean, I think those are 
all positive things.
    But the Strategic Petroleum Reserve remains very relevant. 
I think we still definitely need this reserve to protect our 
economy. It's the one thing that we have to protect us against 
price spikes. The global markets are well supplied now as we 
see from the lower oil prices but it's still a very uncertain 
world so the reserve remains important.
    We've been instructed to sell barrels, you know, both 
through the bipartisan Budget Act and the Transportation Act. 
You know, on the Executive Branch, we execute the law as passed 
by Congress so we will operate consistent with the spirit and 
letter of that law. One positive thing that we get out of that 
is that about $2 billion that will be go back into the 
modernization of the Strategic Petroleum Reserve to make sure 
that that reserve remains ready and that we have facilities to 
push incremental barrels out to the market in a way that 
protects our economy. So we're going to execute that mission in 
a way that's positive for this SPRO.
    Mr. Perlmutter. And I just hope that you buy low and sell 
high. Thank you.
    With that, I'll yield back to the Chair.
    Chairman Weber. So you were a stock trader as well as a 
lawyer?
    The Chair now recognizes the gentleman from Texas, Mr. 
Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Secretary Smith, thank you for being here. In your prepared 
testimony, you discussed the DOE's ongoing research and 
development in the carbon storage focused primarily on the 
permanent geological storage of captured CO<INF>2</INF> from 
fossil fuel systems. But in your testimony there's no mention 
of putting the captured CO<INF>2</INF> to use in enhanced oil 
recovery.
    Similarly, the entire fiscal year 2017 budget proposal 
mentions enhanced oil recovery only twice in the context of 
past projects. Given the potential for cost-effective carbon 
storage, can you explain why facilitating EOR is not included 
in a major part of the DOE's carbon storage program?
    Mr. Smith. Thank you very much for the question, 
Congressman, and it's actually a really good one.
    So as we look at the necessity to get these projects moved 
forward and built, enhanced oil recovery is I think as 
important as it has ever been in terms of incentivizing these 
projects. If you take that CO<INF>2</INF>, you capture it, you 
put it into a pipeline and use it to produce an incremental 
barrel that otherwise would have remained in the ground, you 
can take that value and use it to pay for the project itself. 
In fact, we've got a major demonstration in the State of Texas 
just south of Houston, the Petra Nova Project with NRG, that's 
doing exactly that. It's a 240-megawatt project that's using 
enhanced oil recovery, and the total in economics of the 
recovered barrels are important for the overall project 
economics.
    Now, when it comes to research, I don't see a direct R&D 
role for the Department of Energy in terms of enhanced oil 
recovery. In fact, that's something that industry has been 
doing for decades and does very well. Now, as a methodology for 
taking that CO<INF>2</INF> and putting it to beneficial use, I 
think that is tremendously important.
    One thing that we have proposed are tax credits for 
sequestration so that there would be a tax credit that you'd 
receive for oil that goes into EOR. We think that's important 
to incentivize the activity to push those projects forward. In 
terms of an R&D role, that has not been in our program simply 
because there's a very, very strong commercial drive for 
private industry to put research and development and activities 
and capital into that area. In fact, industry's gotten a lot 
better at it.
    Mr. Neugebauer. So your focus then for your research is 
just cost-effective storage and not necessarily looking at 
alternatives? I mean, the enhanced oil recovery and use of the 
CO<INF>2</INF> for enhanced oil recovery has been a very good 
thing for the oil industry, and according to you is good for 
the environment as well. So if we're not focusing--if we're 
focusing on storage, then why are we not focusing more on if it 
works in the oil industry, it might work in other areas?
    Mr. Smith. Well, I mean, it comes back to a question I had 
earlier, I believe from Mr. Grayson, about how we think about 
where we invest. You know, we've got finite dollars, we've got 
a limited budget, so where do we focus those dollars? We want 
to focus those dollars on areas that have a benefit to the 
taxpayer, have a benefit to the Nation in terms of energy 
security, job creation and the environment, but are areas in 
which industry will not invest in itself that but for the 
involvement of the government that this research wouldn't 
occur. So when we look at saline aquifers, for example, that's 
certainly an area in which we think that we do have to put a 
lot of effort. Otherwise companies are lining up to do that 
research and development right now simply because it's free to 
emit the carbon dioxide.
    Enhanced oil recovery, we think there's an enormous driver 
to invest in that research and development. In fact, we see 
companies doing that. So most of the R&D that we do is going to 
be focused on saline aquifer.
    We will say that the major demonstrations, however, are 
using enhanced oil recovery as their disposal method simply 
because it's positive for the economics of the project. So 
we're getting--you know, we're getting some bang for our buck 
in terms of incentivizing EOR projects but it's not a focus for 
our research, again, simply because it's something that the 
private sector is running pretty hard on.
    Mr. Neugebauer. Mr. Chairman, I yield back.
    Chairman Weber. I thank the gentleman.
    The Chair recognizes Eric Swalwell from California for five 
minutes.
    Mr. Swalwell. Thank you, Chair, and thank you, Assistant 
Secretary Smith.
    I'm interested in your testimony with respect to rare earth 
elements. I had a bill last year that received an overwhelming 
majority of support in the House of Representatives to have the 
Department of Energy play a critical role in finding mines in 
this country where we could harvest these elements which, as 
you know, are used to make jet engines, cell phones, laptops, 
anti-missile systems and the like. However, because you needed 
two-thirds under that procedural vote, it did not pass. I'm 
still hopeful that our Chairman Lamar Smith, who supported the 
bill, and Majority Leader McCarthy, who also supported this 
bipartisan bill, will bring it back.
    But in your testimony, you referred to the National Energy 
Laboratory researching the feasibility of extracting rare earth 
elements from coal and coal byproducts. In March, nine projects 
were selected to look into this topic. I appreciate that you 
are working on this, and I wanted to know if you could give us 
an update on what is the current state of the nine projects 
selected in March, and what--which rare earth elements do each 
of these projects hope to harness? When do you expect results?
    Mr. Smith. Thank you very much for the question. So this 
is--this is a project that we've got some enthusiasm for and 
that we're pushing forward on. We've already had some really 
interesting results in terms of increasing our understanding of 
the occurrence of rare earth elements, not only in geologic 
settings where you'd have some mining challenges but also in 
tailings that come out of the coal-mining process and also in 
coal ash. So we've done some work. The NETL is really 
publishing some groundbreaking papers. We're increasing our 
understanding of areas in which we might be able to find rare 
earth elements in commercial concentrations that as you know 
might reduce the reliance of the United States on importing 
some of these important elements from overseas, primarily from 
China.
    Mr. Swalwell. And would this require burning the coal?
    Mr. Smith. Well, in some cases of it, if you're looking at 
coal ash, I mean, what you essentially have are some kind of 
pre-combusted, pre-pulverized mass that then helps you in terms 
of recovering the rare earth element. We see some promise 
there. We also see some promise in tailings kind of in the 
pre--in the mined residue that you get out of the mining 
process, and we also see some potential in going out and 
extracting it in mining operations of directly--that are geared 
towards recovering rare earth elements, and you know, part of 
our research is going to be exactly how do you extract 
elements. That's kind of the core, how do you--the core of our 
research. That's really the heart of the scientific inquiry 
that we're putting forth presently.
    So the--you mentioned I think we have eight or nine 
solicitations that are in the process of being awarded or 
they're right at the award stage now, so over the course of 
this year I think we'll know a lot more about the results from 
that work but we've already published some work that helps us 
understand the potential, the commercial potential for rare 
earth elements, and again, it's something that in coal-
producing countries--coal-producing parts of the United States 
that have been negatively and adversely impacted by reduction 
in coal use. This is something that has some promise for 
bringing some economic activity to those areas.
    Mr. Swalwell. Great. Thank you. I yield back.
    Chairman Weber. I thank the gentleman.
    Mr. Loudermilk, you are recognized for five minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman, Mr. Smith, for 
being here.
    Secretary Moniz regularly states that innovation is one of 
the most important aspects of advancing energy technology. 
However, it's very clean that the Clean Power Plan will 
devastate the coal industry. My question is, is this the right 
way to innovate to actually harm an entire industry so others 
would prosper, or wouldn't we be better served investing more 
in fossil energy research and technology development than 
trying to regulate our way to success?
    Mr. Smith. Well, thank you for the question, Congressman, 
and this kind of steers us back to a point we've had an 
opportunity to discuss a couple times in this hearing. It's 
difficult to push forward with some of these clean energy 
technologies when it's free to emit as much carbon pollution as 
you want to. What the Clean Power Plan does is provide some 
incentives for--you know, some mandates and incentives for 
states to reach certain predetermined levels of CO<INF>2</INF> 
emissions, and it's an all-of-the-above approach. You can meet 
those targets using whatever methodology one chooses, be it 
wind or solar or nuclear, or in the case of the part of the 
technology that I'm working on, carbon capture and 
sequestration to reduce greenhouse gas emissions coming out of 
industrial sources and out of power sources.
    So we believe it's very important that, you know, under the 
Clean Power Plan that states will have the option of continuing 
to use domestically produced sources of fossil energy including 
oil and natural gas and that we're developing those 
technologies to make sure that there are cost-effective ways of 
capturing CO<INF>2</INF> out of those sources.
    Mr. Loudermilk. Another question. The Energy Information 
Administration recently reported that coal dropped to 29 
percent of the U.S. utility scale power generation down from 
almost 38 percent last year. At the current rate of regulatory 
impact, aren't the coal research and development programs at 
DOE going to be too little, too late?
    Mr. Smith. Well, I mean, we're seeing natural gas prices 
down at $2.15, I think, today, so you're seeing very low 
natural gas prices. They've gone down, you know, beneath $2, 
and this was, you know, when I was in the industry not too long 
ago and, you know, we were seeing close to double-digit natural 
gas prices. That has a big impact on decisions that electricity 
power generators make in terms of how they dispatch 
electricity. It's been a real challenge for coal country. It 
will continue to be a real challenge. But what we have to work 
on--I mean, that's a market force that we're not going to be 
able to unwind, and I'm not going to make any predictions about 
the future of commodity prices. I mean, natural gas prices are 
also involved, and I don't think we can count on any particular 
price or any particular position in the dispatch curve of 
various forms of power generation but what we do have to do is 
make sure that we're continuing to innovate on technologies to 
reduce greenhouse gas emissions out of all sources of energy.
    So we try not to chase a commodity curve. I mean, we can't 
say well, a price is a certain place and so therefore we're 
going to stop research and development program. The challenges 
remain the same, and so we want to give some certainty to our 
researchers, and you know, the road is long in this area.
    Mr. Loudermilk. And you mentioned the inexpensive natural 
gas production, and since 2010, according to the Sierra Club, 
we've lost about a third of the country's coal capacity that's 
been shut down because of the regulations of the EPA. But we've 
been able to avoid spikes in electricity costs because of the 
cheap natural gas. Would you agree that the electricity rates 
would have spiked much higher after those coal shutdowns if it 
wasn't for fracking and the cheap natural gas?
    Mr. Smith. Well, I mean, first I'd challenge the 
characterization that coal is being challenged by EPA 
regulations and that's the cause of the challenges around coal. 
I just don't think that's correct. I mean, market forces have 
had an enormous impact on coal and it's been driven by the 
trillions and trillions of cubic feet of natural gas that are 
available now that weren't available ten years ago. But----
    Mr. Loudermilk. In Georgia, we had three coal plants shut 
down because of EPA regulations, but you're saying that EPA 
regulation hasn't had an effect on coal production?
    Mr. Smith. I'm saying that the major effect--the major 
challenge that coal faces is the fact that natural gas prices 
are $2 and they're not $10, and that has a big impact on the 
way that power generators decide to build plants. I mean, but 
to your question, I think that the advances around hydraulic 
fracturing, advances around horizontal laterals, our ability to 
extract shale gas out of shale formations has been tremendously 
positive for the United States. We're going to be net exporters 
of liquefied natural gas. When I last saw the Chairman, we were 
down in Savine passing the very first LNG export terminal that 
I worked on when it was an import terminal, when it was an 
industry. So this----
    Chairman Weber. You need to work on some more of those.
    Mr. Smith. Well, we've worked on quite a few of them.
    Mr. Loudermilk. And so from what I'm hearing it's because 
of the fracking and the access and the cheap natural gas we 
have here in the United States has definitely helped offset 
some of the loss of our coal production and keeping the prices 
down for the consumers.
    Mr. Smith. Indeed. I mean, 40 percent of our power 
generation comes from coal, a big percent comes from natural 
gas, and they're both important.
    Mr. Loudermilk. Last quick question if I may, Mr. Chairman.
    There is a movement to keep it in the ground, which would 
stop fracking and access to this natural gas. I mean, we 
actually have some presidential candidates who are campaigning 
on this, we're going to keep it in the ground and put a lock on 
accessing these commodities through fracking and natural gas. 
Would that not cause a spike in electricity production should 
as we've just been discussing the access to these commodities 
is what's kept the prices low as we shut down coal. Would that 
not have the opposite effect?
    Mr. Smith. The increasing production of natural gas has had 
a very positive impact on our economy. It's had a positive 
impact on the environment. We understand--I mean, there are 
concerns about some of the risks but those are things that 
we've quantified and we believe that this is a process that can 
be managed safely, so we think that natural gas is an important 
part of the clean energy economy of the future. In fact, we've 
been kind of explicit around that view.
    Mr. Loudermilk. Thank you, sir. I yield back.
    Chairman Weber. I thank the gentleman.
    The gentleman from Texas, Mr. Veasey, is recognized.
    Mr. Veasey. Thank you, Mr. Chairman, and Secretary Smith, 
thank you for being here today. It's always good to see someone 
else from Fort Worth on Capitol Hill, so welcome here today.
    And I wanted to ask if you could touch very briefly on the 
Texas Clean Energy Project. As you know, that is of huge 
importance to the state and I wanted to see what you know about 
it and if you can just briefly get me caught up on that.
    Mr. Smith. Well, thank you very much for the question, 
Congressman. So the Texas Clean Energy Project is a project 
that was designed to--it's one of the major demonstrations 
designed to capture CO<INF>2</INF> coming out of a plant in 
Texas. It's a project that we've been working on for the last 
several years along with a company called Summit that's based 
in Washington State. Along with all of our major 
demonstrations, it's been kind of an important part of our 
effort to ensure that technologies move from the desktop to the 
laboratory out into the real world and get built and developed.
    We've recently made--you know, over time we've allowed this 
project to have additional time to meet some major milestones. 
Whenever we have a major project like this, we put in place 
very well thought-out controls to ensure that we're getting the 
best value for the taxpayer. That project has some milestones 
that it has not met in terms of getting financing for the 
project, and so I've recently--just recently sat down with the 
CEO of that company. We've discussed offering them a no-cost 
extension that would allow them to continue to try to develop 
the project at no additional cost to the taxpayer. Again, these 
are difficult projects. They're tough projects. This is a 
company that's been dogged in its pursuit of what we think is a 
really important project for us. And you know, I foresee them, 
you know, trying to continue to raise additional funding for 
that project but at this point the U.S. government is not 
putting additional taxpayer funds towards that project.
    Mr. Veasey. Thank you very much for the update on that.
    And I want to shift over to sequestration. It appears that 
we've solved some key technological hurdles when it comes to 
sequestering CO<INF>2</INF> in geological formations but we 
still have a lot of challenges that we have to overcome in that 
area, and I wanted to ask you what are some of the key hurdles 
left in DOE's research into carbon sequestration?
    Mr. Smith. Well, thank you for the question. So we've got 
seven major--seven regional partnerships across the United 
States that are looking at the challenge of putting CO<INF>2</INF> 
into geologic formations across the United States, and this is 
looking at a variety of depositional environments, a variety of 
geologic settings, so the geology in different parts of the 
United States is different and therefore you have to do 
different types of research about the effectiveness of storing 
CO<INF>2</INF> in formations across the United States.
    The challenge of CO<INF>2</INF> storage is that you are 
storing just enormous, enormous quantities of CO<INF>2</INF>, 
and that's one of the reasons why geologic storage in saline 
aquifers is what we see as being kind of the future of carbon 
storage.
    We've learned a lot in that process. We've been able to 
create a lot of data that we're able to provide in terms of the 
potential of storing CO<INF>2</INF> in different areas so we've 
put out atlases that show the potential for carbon storage, and 
we know that we've got a tremendous, tremendous resource in the 
United States in terms of the storage potential for 
CO<INF>2</INF>. We're continuing to work on issues around 
monitoring and verification. We've got projects that have 
cycled out of the phase of injecting CO<INF>2</INF> into the 
ground and have moved on to that medium-term monitoring and 
verification, so there's more work for us to but we're working 
very closely with state and local authorities. The end goal of 
all this effort is to be able to scientifically quantify the 
activity and the opportunity and to provide regulatory 
authorities with the data they need in order to create a robust 
permanent environment in the future in which we know that we're 
going to have to capture all the CO<INF>2</INF> and store it 
for--store it in these geologic formations.
    Mr. Veasey. Has DOE researched the public relations and 
education aspect of siting the CO<INF>2</INF> pipelines and 
commercial storage sites?
    Mr. Smith. Indeed. I mean, part of what we do, I mentioned 
the atlases and the other publications that the NETL puts out. 
I think that's an important part of the public outreach so that 
we're clearly communicating the results of the project. People 
know, you know, that we've understood the issues around long-
term geologic storage, everything from well bores to ability 
all the way through induced seismic issues. I think it's 
important that we take any of these risks seriously and that we 
clearly communicate the scientific research so that we're 
quantifying the risk.
    Additionally, you know, projects like the ADM project that 
we're doing in Illinois have a component of creating a public 
outreach centers that we're able to communicate with the public 
so that they understand our research and the process that one 
would have to go through in order to accomplish one of these 
projects.
    Mr. Veasey. Thank you very much, and Mr. Chairman, in 
closing, I hope that Mr. Smith has a chance to go back to his 
alma mater of Southwest High School and talk with their program 
that they actually have a program at the school that trains 
people on, you know, exploration and the different aspects of 
energy and being a petroleum engineer specifically, and so 
hopefully you have a chance to go back to Fort Worth ISD and do 
that.
    And Mr. Chairman, I yield back. Thank you.
    Mr. Smith. Thank you. I'll be back in Fort Worth this 
Friday actually.
    Chairman Weber. Marc, did they have multiple classes when 
you were in high school? They weren't all just in one single 
room with a wood-burning stove?
    Mr. Veasey. No, we had moved past the schoolhouse----
    Chairman Weber. Okay. I was just----
    Mr. Veasey. --into a full school by the time I was there.
    Chairman Weber. --curious. All right. Thank you. The 
gentleman yields back.
    The gentleman, the pride of East Texas, the Big Thicket, is 
recognized, and you've got a lot of forest out there, Dr. 
Babin, that uses CO<INF>2</INF>, I bet. You're recognized for 
five minutes.
    Mr. Babin. Those trees needs lots of CO<INF>2</INF>, or 
they give a lot of oxygen back. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. We appreciate you, and you 
had mentioned a Houston project a while ago, and would you give 
me the name of that?
    Mr. Smith. That's the Petra Nova project. It's a 
collaboration with NRG so it's a 240-megawatt post-combustion 
capture project that's just south of Houston, Texas.
    Mr. Babin. Just south?
    Mr. Smith. Just south of Houston.
    Mr. Babin. All right. Thank you.
    And I noticed you're a graduate of West Point as well, 
right?
    Mr. Smith. I am indeed.
    Mr. Babin. Yeah. That's good. Well, I have a son that went 
to the Naval Academy. Go Navy, beat Army.
    Mr. Smith. Okay. Beat Navy.
    Mr. Babin. Well, funding for the TCEP, or Texas Clean 
Energy Project, is a coal gasification project in Texas, which 
we've talked about a little bit today, was pulled to fund other 
priorities in the fiscal year 2017 budget. This Committee has 
been working in a bipartisan manner to get to the bottom of the 
problems with the project, and we appreciate the letter that 
you sent in response to some of our questions about this 
project, and in your response you referenced an internal review 
that your office conducted of the project before making the 
decision to rescind the funding. Can you commit to provide that 
review to this Committee?
    Mr. Smith. I'd be happy to respond to that for the record.
    Mr. Babin. Okay. That'd be great.
    The DOE Inspector General released a special report on TCEP 
just last month, and in this report, the IG was very critical 
of DOE's management practices, particularly when it came to 
enforcing deadlines, cost ceilings, and managing risk for the 
taxpayers. Your office has overseen several large project 
failures and it's clear that there is a systematic problem in 
the Office of Fossil management for large commercialization 
projects. What steps have you taken to address these management 
issues?
    Mr. Smith. Well, thank you for the question, Congressman, 
and that's obviously a big issue.
    So first, to address the IG report, so the bottom line on 
the IG report was that they recommended that the Department of 
Energy continues to not advance funds to the TCEP project. When 
we have a project like this, we take the overall award, which I 
think was around $450 million for the TCEP project, and we 
divide it up into phases, phase I, which is the project 
development, and then phase II, which is construction and 
operation, and we have milestones within phase I that allow the 
applicant to get from phase I to phase II. These projects are 
difficult. Again, the primary difficulty is commercial, 
commercially difficult. You have to sell the CO<INF>2</INF>. 
You have to sell the urea offtake. You have to sell the power. 
You have to get your EBC contract in place. You have to get 
financing. So there's lots of moving parts, and you're trying 
to do this in an environmental which again it's free to emit as 
much CO<INF>2</INF> into the environment as you want to, so 
they're commercially difficult.
    They're important, and we worked with the Summit team, you 
know, over time to give them more time to accomplish some of 
the milestones. We worked with them to advance in funding from 
phase II to phase I. Every time we do that, it's a case-by-case 
decision. I mean, we don't have our feet set in stone. We have 
to look at what the market's doing. We have to look at what 
progress is being made, and we have to look at what the risks 
are to the taxpayer of making the decision to advance funds 
from phase II to phase I.
    At some point, however, you decide that it's not the 
prudent thing to do in terms of getting the best outcome for 
the taxpayer, which is exactly what we did in this case. So we 
have to make some hard decisions in some cases. We'd love for 
all the projects to make it. But the bottom line is that these 
projects are difficult, and if we knew they were all going to 
make it, there probably would not be a role for the government 
to help push these along. So----
    Mr. Babin. Let me follow up with something real quickly 
here. Looking at this and other failed or struggling projects 
in the fossil portfolio, the connecting thread seems to be the 
size and the goal of the project. It seems like when the Office 
of Fossil undertakes a large commercialization project, there 
are frequent problems and delays. The Department has 
considerable expertise in research and development, and a long 
history of success in fossil energy. Shouldn't DOE get the hint 
and focus on fossil technology R&D instead of investing in 
companies looking to commercialize energy technology?
    Mr. Smith. Well, Congressman, we do both. I think that both 
are important roles for our Department. So we invest in those 
early-stage technologies from controls to systems to materials 
to next-generation technologies like pressurized oxy-combustion 
and chemical looping. We think there's an important role for us 
there. We think there's also an important role for the major 
demonstrations. Throughout our seven regional partnerships, 
we've got a number of very, very successful projects that again 
have stored almost 12 million tons of CO<INF>2</INF> over time. 
We spoke about the project that we did in Chairman Weber's 
district, the Air Products project, the Archer Daniels Midland 
project in Illinois, the Petra Nova project that you and I just 
spoke about. These are examples of taking ideas from the 
laboratory and putting them out into the field so they're 
actually pouring concrete and bending rebar and erecting steel 
and getting projects built. They're difficult. If they weren't 
difficult, we wouldn't be working on them.
    But--and we learn something every time we do one of these 
things but I would characterize our risk management methodology 
as being robust, as being sound, and again, we think that these 
are really, really important projects and for the future of 
fossil energy and making sure that all of our sources of energy 
remain relevant. They're important for coal.
    Mr. Babin. Okay. Thank you.
    Mr. Chairman, thank you, and my time is expired.
    Chairman Weber. I thank the gentleman, and I want to thank 
Chairman, or Secretary Smith for his valuable testimony, for 
being here, and the record will remain open for two weeks for 
additional comments and written questions from members.
    I do want to say in closing, however, though, that it's our 
opinion that I think it would be better that the DOE would 
focus on innovation rather than commercialization and kind of 
leave as much of that to the private sector as we can. So we 
thank you for being here, Secretary Smith, and this hearing is 
adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
